United States Court of Appeals for the
District of Columbia Circuit
Argued February 7, 2019
Decided April 16, 2019
No. 18-3043
UNITED STATES OF AMERICA,
APPELLEE,
v.
JOHN WAYNE SCANTLEBURY, ALSO KNOWN
AS FREDERICK DAVIS, ALSO KNOWN AS JOHN
WAYNE TROTMAN,
APPELLANT.
Consolidated with 18-3044
Appeals from the United States District Court
for the District of Columbia
(No. 1:04-cr-00285-3)
(No. 1:04-cr-00285-4)
Before: PILLARD and KATSAS, Circuit Judges, and
EDWARDS, Senior Circuit Judge.
Opinion for the Court filed by Senior Circuit Judge
EDWARDS.
EDWARDS, Senior Circuit Judge: In 2004,
Appellants,
John
Wayne
Scantlebury
(“Scantlebury”) and Sean Gaskin (“Gaskin”), who
are residents of Barbados, along with another
Barbadian resident – Frederick Christopher
Hawkesworth (“Hawkesworth”) – and two Guyanese
residents, were indicted by a grand jury in
Washington, D.C., for conspiracy to traffic cocaine.
Scantlebury, Gaskin, and Hawkesworth (who is now
deceased) all challenged extradition to the United
1a

States. The disputes over extradition lasted for over
nine years. Finally, in December 2013, the U.S.
Government moved to dismiss the charges against
Scantlebury, Gaskin, and Hawkesworth without
prejudice, citing “the age of the case, government
resources, and other factual and legal issues which
indicate the case is no longer viable.” Joint
Appendix (“J.A.”) 41. The District Court granted
the Government’s motion to dismiss on January 9,
2014.
Appellants argue that prosecutors in the
United States knew for years, well before they
moved to dismiss the charges, that the cases had
“cratered” and that there was no probable cause to
support the indictments. Appellants therefore assert
that the District Court should have dismissed the
indictments with prejudice. On appeal, Appellants
seek a remand to the District Court with
instructions to dismiss the charges with prejudice.
The Government in turn contends that this court has
no basis upon which to entertain this appeal. We
agree with the Government.
First, we are bound by the Supreme Court’s
decision in Parr v. United States, 351 U.S. 513
(1956). In Parr, the Court held that, without more, a
criminal defendant whose indictment is dismissed
without prejudice is not aggrieved and, therefore, has
no standing to appeal. Id. at 516–17. Second, even
assuming, arguendo, that the threat of subsequent
prosecution might be sufficient in some cases to
support an appeal of a dismissal without prejudice,
the statute of limitations has run on the charges
against Appellants, so the question is moot. Third,
Appellants assert ongoing reputational injuries
allegedly caused by their arrest and indictment
records. But they lack standing to pursue these
claims because dismissing the indictment with
prejudice
would
not
redress
the
alleged
2a

reputational harms. Finally, we hold that the court
lacks jurisdiction to consider Appellants’ request
for declaratory relief.
I.
BACKGROUND
The U.S. Government began investigating
Hawkesworth for cocaine trafficking in 2000. The
Government suspected that
Raphel Douglas
(“Douglas”) and Terrence Sugrim (“Sugrim”) were
supplying cocaine from Guyana to Hawkesworth.
And Appellants were suspected of assisting
Hawkesworth in an international drug trafficking
operation that distributed cocaine in Barbados and
transported cocaine from Barbados and Guyana to
the United States.
As part of its investigation, the Government
worked with an unnamed confidential informant.
The informant allegedly spoke with Appellants and
Hawkesworth on several occasions and made plans
to help them transport cocaine to the United States.
In 2004, a federal grand jury in Washington,
D.C., returned a two-count indictment against
Scantlebury, Gaskin, Hawkesworth, Douglas, and
Sugrim. The first count alleged that all five
defendants had conspired to distribute more than
five kilograms of cocaine. The second count alleged
that Hawkesworth and Douglas distributed 500
grams or more of cocaine. With respect to Appellants
specifically, the indictment alleged that they
“obtained false identification cards and documents
in order to travel to the United States to facilitate
the importation of cocaine from Barbados, Guyana
and elsewhere into the United States.” J.A. 35.
The indictment stated that Hawkesworth was the
leader of the organization, which had allegedly
shipped 184 kilograms of cocaine from Guyana to
JFK Airport in New York City. The indictment also
alleged that Scantlebury and Gaskin met with the
3a

informant to discuss whether contacts were in place
for a test shipment of cocaine and that the
informant provided Scantlebury and Gaskin with
fake identification cards.
Following indictment, the Government sought
extradition
of
Scantlebury,
Gaskin,
and
Hawkesworth from Barbados and Douglas and
Sugrim from Guyana. Douglas was extradited, but
Sugrim was never taken into custody. The three
Barbadian defendants were arrested by Barbadian
law enforcement officials, but they challenged
extradition and remained in Barbados. All three
were released on bail in late 2004 or early 2005.
Then, for reasons that are not indicated in the
record, their bail was revoked and they returned to
jail in Barbados in 2011. Scantlebury, Gaskin, and
Hawkesworth remained incarcerated in Barbados
from 2011 until the indictments were dismissed on
January 9, 2014.
In support of its requests for extradition from
Barbados, the U.S. Government submitted affidavits
written by a Senior Trial Attorney in the Criminal
Division of the Department of Justice (“Trial
Attorney”), a Drug Enforcement Administration
(“DEA”) special agent, and the confidential
informant. The Trial Attorney’s affidavit stated that
the evidence against the defendants included the
testimony of the confidential informant and of DEA
agents, audio and video recordings of conversations,
photographs, telephone records, passport records,
airline records, and seized cocaine. The DEA special
agent’s affidavit stated that 184 kilograms of
cocaine, packed in a shipment of frozen seafood, was
seized at JFK Airport on September 20, 2003, and
that, later that day, the confidential informant met
with Sugrim and Hawkesworth, who said that they
had lost a load of 180 kilograms of cocaine that had
been shipped to JFK. The DEA affidavit also noted
4a

that the confidential informant “was told that
nobody was arrested.” J.A. 132. In addition, the
DEA affidavit noted that the confidential informant
had worked with the DEA for approximately five
years and had proven to be “completely reliable.”
Id. at 129.
In support of its request for extradition of
Douglas, U.S. Government officials made several
additional statements attesting to the reliability of
the confidential informant. Id. at 160. Douglas was
extradited from Trinidad to the United States in
October 2005. It was later determined, however, that
several of the Government’s claims made in support
of the confidential informant’s reliability were not
true. See id. at 225–31. In February 2007, the U.S.
Government moved to dismiss without prejudice the
District of Columbia indictment against Douglas. The
motion was granted by the District Court.
The Government subsequently filed a second
indictment against Douglas, Hawkesworth, and
Sugrim in the Eastern District of New York on
narcotics and use of telephone charges. In the New
York case, the Government acknowledged that there
were inaccuracies in the materials that it had
submitted
supporting
Douglas’s
extradition.
Douglas ultimately pled guilty to a telephone charge
and was sentenced to time served. See id. at 276.
In November 2013, Gaskin consented to
extradition to the United States, but he was never
extradited. Instead, on December 24, 2013, the
U.S. Government filed a motion to dismiss without
prejudice the District of Columbia indictment
against Scantlebury, Gaskin, Hawkesworth, and
Sugrim pursuant to Rule 48(a) of the Federal Rules
of Criminal Procedure (“Rule 48(a)”). The
Government explained that its motion was made “in
good faith” based on “the age of the case, government
resources, and other factual and legal issues which
5a

indicate the case is no longer viable.” Id. at 41.
Approximately two weeks later, on January 9, 2014,
the District Court granted the Government’s motion
and the defendants were released from Barbadian
custody. See id. at 345.
In 2015, the Barbadian defendants filed civil
actions against the United States and certain federal
officers. See Complaint, Gaskin v. United States,
No. 15-cv-23-EGS (D.D.C. Jan. 8, 2015); Complaint,
Gaskin v. May, No. 15-cv- 33-EGS (D.D.C. Jan. 9,
2015). The criminal case arising out of the District of
Columbia indictment was subsequently unsealed in
September 2015. See J.A. 20–21. In February
2016, the Barbadian defendants moved in the
criminal case for alteration of the dismissal of the
indictment from a dismissal without prejudice to a
dismissal with prejudice. See id. at 46–92. The
defendants argued that they were innocent of the
charges in the indictment, that the charges harmed
their reputations, and that the Government had
committed prosecutorial misconduct by swearing to
inaccurate statements and failing to timely notify
the Barbadian government when the case against
the defendants fell apart. Id. The motion did not
request expungement of the records of arrest or
indictment. Instead, the defendants merely sought to
“reserve the right to seek the lesser relief” of
expungement if the motion requesting dismissal with
prejudice was denied. Id. at 90. Defendant
Hawkesworth passed away before the District Court
ruled on the motion. See id. at 24.
The District Court denied the motion to alter
the dismissal without prejudice to a dismissal with
prejudice, concluding that dismissal with prejudice
was not warranted because the defendants “failed
to rebut the presumption that the government
sought dismissal in good faith and because the
circumstances here do not rise to the level of being
6a

exceptional.” Id. at 357. The District Court
acknowledged that the defendants had reserved the
right to seek expungement and stated that it would
“address any such request [for expungement]” if
“movants [sought] additional relief following the
Court’s decision on the pending motions.” Id. at 366.
Appellants moved for reconsideration of the District
Court’s denial of their motion to alter the dismissal
without prejudice to a dismissal with prejudice.
Their request for reconsideration was denied.
Appellants never filed a motion with the District
Court seeking expungement. This appeal followed.
II.
DISCUSSION
Appellants assert that this court has
jurisdiction over this appeal pursuant to 28 U.S.C. §
1291, which gives the courts of appeals jurisdiction
over “all final decisions of the district courts of
the United States.” 28 U.S.C. § 1291. Appellants
acknowledge that their standing to appeal is
dubious under Parr, 351 U.S. at 516, and also Lewis
v. United States, 216 U.S. 611, 612 (1910) (per
curiam) (holding that when a criminal defendant is
“discharged from custody he is not legally aggrieved
and therefore cannot appeal”). See Appellants’ Br. at
27. Appellants argue, however, that they have
suffered “ongoing reputational injury from the
indictment . . . and thus [have] standing to seek to
convert the dismissal without prejudice into a
dismissal with prejudice that would exonerate them
of wrongdoing and redress those ongoing injuries.” Id.
at 28–29.
The Government contends that “[t]his Court
should dismiss the appeal for lack of appellate
jurisdiction.” Appellee’s Br. at 13. In support of
this position, the Government asserts, first, that
“[t]he Supreme Court has squarely held that the
dismissal of an indictment without prejudice is not
an appealable order”; second, “[a] defendant whose
7a

indictment is dismissed is not injured by that
ruling, even if he still faces potential prosecution,
suffered reputational harm from the indictment,
and was deprived of liberty as a result of the
charges”; and, finally, that “[a] dismissal without
prejudice [] is an interlocutory order” that is subject
to review only “after trial on a new indictment,
conviction, and sentencing.” Id. at 13–14.
The matters at issue in this case concern the
jurisdiction of the court. Bender v. Williamsport
Area Sch. Dist., 475 U.S. 534, 541 (1986) (“[E]very
federal appellate court has a special obligation to
satisfy itself . . . of its own jurisdiction.”) (internal
quotation marks omitted). Therefore, we address the
issues de novo. See Safari Club Int’l v. Jewell, 842
F.3d 1280, 1285 (D.C. Cir. 2016).
On the record before us, we hold that this
court has no basis upon which to entertain this
appeal. Appellants lack standing to appeal because
they were not aggrieved by the dismissal without
prejudice; the statute of limitations has run on the
charges against Appellants, so the question
regarding whether they face a threat of subsequent
prosecution is moot; and they have asserted no
viable grounds for redress of their alleged
reputational injuries. In light of these holdings, we
need not decide whether the District Court’s
dismissal without prejudice was “final” for the
purposes of § 1291.
A.
Appellants Lack Standing to
Appeal for Lack of Aggrievement
Federal courts may not adjudicate cases unless
the parties have a personal stake in the suit, not
only at the outset of the litigation but at each
successive stage as well. See Camreta v. Greene, 563
U.S. 692, 701 (2011). One element of that inquiry is
whether, at each stage of the litigation, the party
8a

seeking relief can establish the “invasion of a
legally protected interest.” Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1548 (2016) (quoting Lujan v. Defs.
of Wildlife, 504 U.S. 555, 560 (1992)). In Parr, the
Court held that a defendant whose indictment has
been dismissed without prejudice is not aggrieved
so as to support standing to appeal. 351 U.S. at
516–17.
The defendant-appellant in Parr obtained a
transfer of the indictment against him to another
division within the same district on grounds of
local prejudice. Id. at 514. The Government then
dismissed that indictment and filed a new
indictment in another district. Id. at 515. Parr
appealed the dismissal without prejudice, but the
Supreme Court held that Parr could not appeal
unless and until he was convicted and sentenced.
Id. at 516–18.
Taking the initial, dismissed indictment in
isolation, the Court held that Parr could not appeal
the dismissal for want of standing:
If the Corpus Christi indictment is viewed in
isolation from the Austin indictment, an
appeal from its dismissal will not lie because
petitioner has not been aggrieved. Only one
injured by the judgment sought to be
reviewed can appeal, and, regarding the
Corpus Christi proceeding as a separate
prosecution, petitioner has not been injured
by its termination in his favor. So far as
petitioner’s standing to appeal is concerned,
it makes no difference whether the
dismissal still leaves him open to further
prosecution, or whether, as petitioner
contends, it bars his prosecution elsewhere
than in Laredo because the transfer order
9a

operated to give him a vested right to be tried
only there. The testing of the effect of the
dismissal order must abide petitioner’s trial,
and only then, if convicted, will he have been
aggrieved.
Id. at 516–17 (citations omitted).
Thus, the Court’s holding in Parr indicates
that, as a general matter, a criminal defendant is
not injured, and thus lacks standing to challenge a
dismissal without prejudice, unless and until he is
subsequently convicted. See also United States v.
Martin, 682 F.2d 506, 507 (5th Cir. 1982) (per curiam)
(“Any testing of the dismissal order must abide the
outcome of a trial on the issue of guilt. Then, if
convicted, the defendants may be aggrieved.”).
Appellants argue that, since the decisions in
Lewis and Parr, “federal courts have expanded their
appreciation of what constitutes an Article III injury
. . . so a century later ‘an appeal brought by a
prevailing party may satisfy Article III’s case-orcontroversy requirement.’” Appellants’ Br. at 28
(quoting Camreta, 563 U.S. at 702). Appellants’
cited authority is inapposite to this case.
Camreta, for example, was a civil case involving
qualified immunity. As the Court explained, “a
state child protective services worker and a county
deputy sheriff interviewed a girl at her elementary
school in Oregon about allegations that her father
had sexually abused her. The girl’s mother
subsequently sued the government officials on the
child’s behalf for damages under Rev. Stat. § 1979,
42 U.S.C. § 1983, claiming that the interview
infringed the Fourth Amendment.” 563 U.S. at 697.
The Court of Appeals ruled that the public officials
had violated the Constitution, but that qualified
immunity protected the officials from liability.
The Supreme Court held that the public
10a

officials in Camreta had standing to seek review
because they retained a “necessary personal stake in
the appeal,” given that the ruling could still “have
prospective effect on the parties.” Id. at 702. The
Court explained:
[The] Article III standard often will be
met when immunized officials seek to
challenge a ruling that their conduct
violated the Constitution. That is not
because a court has made a retrospective
judgment about the lawfulness of the officials’
behavior,
for
that
judgment
is
unaccompanied by any personal liability.
Rather, it is because the judgment may have
prospective effect on the parties. The court in
such a case says: “Although this official is
immune from damages today, what he did
violates the Constitution and he or anyone
else who does that thing again will be
personally liable.” If the official regularly
engages in that conduct as part of his job (as
Camreta does), he suffers injury caused by
the adverse constitutional ruling. So long as
it continues in effect, he must either change
the way he performs his duties or risk a
meritorious damages action.
563 U.S. at 702–03.
In Camreta, the defendants had the
“necessary personal stake” in the outcome of the
appeal because they would be compelled to alter
their future conduct to comply with the judgment.
Appellants have not argued that they have been
affected similarly in this case, nor do they have any
basis upon which to do so.
The Government also argues that Appellants
11a

cannot appeal the dismissal without prejudice
because it does not constitute a final decision for the
purposes of 28 U.S.C. § 1291. In Parr, the Court
held that the appeal was premature because the
subsequent indictment was still pending at the time
of appeal. See Parr, 351 U.S. at 518–19. In so doing,
the Court broadly stated that “[f]inal judgment in
a criminal case means sentence.” Id. at 518
(quoting Berman v. United States, 302 U.S. 211,
212 (1937)).
In this case, however, unlike Parr, no
subsequent indictment was handed down. And the
statute of limitations on the charge against
Appellants expired before oral argument. At oral
argument, counsel for the Government confirmed
that the Government would not seek a further
indictment. Therefore, the judgment in this case is
as final as it will ever be. Under these
circumstances, there is reason to doubt whether
Parr’s finality holding is applicable.
The Supreme Court in Parr took pains to
address the first and second indictments in that case
independently, treating the
first, dismissed
indictment as unappealable for lack of injury, while
separately holding that the subsequent indictment
was not yet appealable for lack of finality. And at
least one of our sister circuits has made the same
distinction. See United States v. Moller-Butcher, 723
F.2d 189, 191 (1st Cir. 1983) (“If [the defendant] is
not reindicted, it will never have suffered injury as a
result of the dismissal. If, on the other hand, [the
defendant] is reindicted, then the dismissal is an
intermediate step in the prosecution which may be
reviewed only after final judgment in the case.”).
It is unnecessary for us to decide whether
Parr’s finality holding applies to this case. On the
record before us, it is clear that, under Parr,
Appellants were not aggrieved by their dismissals
12a

without prejudice. Therefore, they have no standing
to pursue this appeal.
B.
Appellants’ Challenges to the
Dismissals of Their Indictments
Without Prejudice Are Moot
We also lack jurisdiction over this appeal
because the claims raised by Appellants are moot.
“When ‘subsequent events ma[ke] it absolutely
clear that the allegedly wrongful behavior could not
reasonably be expected to recur,’ we have no live
controversy to review.” Camreta, 563 U.S. at 711
(alteration in original) (quoting United States v.
Concentrated Phosphate Export Ass’n, Inc., 393 U.S.
199, 203 (1968)).
The parties agree that the statute of
limitations has run on the drug trafficking charge
pursuant to which Appellants were indicted. See
Appellants’ Br. at 28 n.8 (noting that, even if the
statute of limitations was tolled pending
extradition, the five- year statute of limitations
expired on January 13, 2019). Therefore, there is
no possibility that Appellants will be indicted for
the same alleged offenses that gave rise to this case.
The elimination of exposure to re-indictment
moots Appellants’ objections to the form of the
dismissal. See Lewis, 216 U.S. at 613; see also
Parr, 351 U.S. at 517 & n.8 (discussing the finding
of mootness in Lewis).
C.
Due to Lack of Redressability,
Appellants Lack Standing to
Support Their Claims of
Reputational Injuries
Appellants argue that they have standing to
pursue this appeal because of alleged “ongoing
reputational
injury
from
the
indictment.”
Appellants’ Br. at 28. In support of this assertion,
13a

Scantlebury and Gaskin submitted declarations to the
court reciting reputational harms that continue to
adversely affect their job opportunities, limit their
abilities to secure bank loans, and make it difficult
for them to visit the United States. Each Appellant
claims that “[a]n order of this Court dismissing [his]
indictment with prejudice – or less preferably,
expunging [his] arrest record – would enable
[him] to claim that the indictment was in error
because [he] was not guilty of the charges and
would remove an obstacle” to re-establishing his
reputation or returning to the United States. J.A.
106, 109.
On the record before us, we hold that the
reputational injuries alleged by Appellants do not
give them standing to appeal. This is because the
relief that Appellants seek – an alteration of the
dismissals without prejudice to dismissals with
prejudice – would not redress the injuries that
Appellants have alleged.
In order to establish standing, “it must be
‘likely,’ as opposed to merely ‘speculative,’ that the
injury will be ‘redressed by a favorable decision.’”
Lujan, 504 U.S. at 561 (quoting Simon v. E. Ky.
Welfare Rights Org., 426 U.S. 26, 38, 43 (1976)).
Appellants argue that a favorable ruling from this
court that “the United States charged them without
probable cause would redeem their reputations” and
that, with respect to Gaskin, “striking the arrest
would prevent U.S. immigration officials from
using the fact of the arrest against him in the
discretionary processing of his planned application to
apply to return to the United States.” Appellants’
Br. at 29. These arguments are premised on a
misunderstanding of Rule 48(a), which allows the
prosecution to dismiss an indictment only “with
leave of court.” Fed. R. Crim. P. 48(a).
“[T]he ‘leave of court’ authority gives no
14a

power to a district court to deny a prosecutor’s
Rule 48(a) motion to dismiss charges based on a
disagreement with the prosecution’s exercise of
charging authority.” United States v. Fokker Servs.
B.V., 818 F.3d 733, 742 (D.C. Cir. 2016). Rather, a
trial court “reviews the prosecution’s motion under
Rule 48(a) primarily to guard against the prospect
that dismissal is part of a scheme of ‘prosecutorial
harassment’ of the defendant through repeated
efforts to bring—and then dismiss—charges.” Id.
(quoting Rinaldi v. United States, 434 U.S. 22, 29 n.15
(1977)). Therefore, a finding that the District Court
erred in applying Rule 48(a) would not constitute a
holding in Appellants’ favor that the Government
charged them without probable cause. Nor would a
favorable holding have any impact on the records of
Appellants’ arrests and indictments.
The problem for Appellants is that their
alleged reputational injuries stem from their
arrests and indictments, not from the District
Court’s application of Rule 48(a). Neither the trial
court nor this court may second-guess an indictment
that is “‘fair upon its face,’ and returned by a
‘properly constituted grand jury.’” Kaley v. United
States, 571 U.S. 320, 328 (2014) (quoting Gerstein v.
Pugh, 420 U.S. 103, 117 n.19 (1975)); see also id.
(“The grand jury gets to say––without any review,
oversight, or second-guessing––whether probable
cause exists to think that a person committed a
crime.”). Therefore, absent a meritorious challenge to
their indictments, we lack the authority to afford
Appellants the relief that they seek.
Had Appellants sought expungement of their
indictment and arrest records, rather than dismissal with prejudice, the redressability analysis
might have been different. But Appellants did not
move for expungement before the District Court and
they have not requested it before this court.
15a

The remedy of expungement is available only
if “necessary to vindicate rights secured by the
Constitution or by statute.” Abdelfattah v. DHS,
787 F.3d 524, 536 (D.C. Cir. 2015) (quoting
Chastain v. Kelley, 510 F.2d 1232, 1235 (D.C. Cir.
1975)); see also id. at 538 (“[We do not] recognize
a nebulous right to expungement of government
records that are inaccurate, were illegally obtained,
or are ‘prejudicial without serving any proper
purpose;’ instead expungement is a potentially
available remedy for legally cognizable injuries.”).
Appellants have made no attempt to satisfy this
standard.
In sum, the remedy sought by Appellants, if
granted, would not redress their alleged reputational
injuries. Therefore, Appellants lack standing to
pursue these claims.
D.
The Court Has No Jurisdiction to
Consider Appellants’ Claims Under
the Declaratory Judgment Act
Finally, Appellants request declaratory relief
from this court under the Declaratory Judgment
Act, 28 U.S.C. § 2201. However, the Declaratory
Judgment Act does not extend the jurisdiction of
the federal courts. See Skelly Oil Co. v. Phillips
Petroleum Co., 339 U.S. 667, 671 (1950) (“[The
Declaratory Judgment Act] enlarged the range of
remedies available in the federal courts but did not
extend their jurisdiction.”). Having concluded that
we lack jurisdiction over this appeal on injury,
mootness, and redress grounds, we further conclude
that we lack jurisdiction to consider Appellants’
request for declaratory relief.
III.
CONCLUSION
For the reasons stated herein, these appeals
are dismissed.
So ordered.
16a

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Criminal No. 04-285 (EGS)
UNITED STATES OF AMERICA,
v.
FREDERICK HAWKESWORTH,
JOHN WAYNE SCANTLEBURY,
SEAN GASKIN
DEFENDANTS.
MEMORANDUM OPINION
On January 9, 2014, this Court granted the
government’s motion to dismiss without prejudice
the indictment against Sean Peter Gaskin, John
Wayne Scantlebury and Frederick Christopher
Hawkesworth1 (collectively, “movants”), pursuant to
Federal Rule of Criminal Procedure 48(a). See Order
Dismissing Indictment Without Prejudice (“Order”),
ECF No. 79. Pending before the Court is movant’s
Motion to Alter Dismissal to Dismissal With
Prejudice for Lack of Probable Cause of Criminal
Conduct. Movants argue that the Court can grant
the requested relief: (1) based on its inherent power;
(2) to sanction conduct; and/or (3) pursuant to
Federal Rule of Criminal Procedure 48(a). Also
The Motion to Alter Dismissal was filed prior to Mr.
Hawkesworth’s death. Given Mr. Hawkesworth’s death in
September 2016, see Notice of Death of Frederick C.
Hawkesworth, Oct. 4, 2016, ECF No. 113, he cannot be reprosecuted for his alleged crimes. As such, Mr. Hawkesworth’s
request for relief is moot. United States v. Oberlin, 718 F.2d
894, 894 (9th Cir. 1983)(citing Schreiber v. Sharpless, 110 U.S.
76, 80 (1884)(“It is a well-settled rule that actions upon penal
statutes do not survive the death of the wrongdoer.”)
1

17a

pending before the Court is movant’s Motion to
Bifurcate the Court’s Consideration of the Pending
Motion to Alter Judgment, which was filed following
the death of Mr. Hawkesworth. Upon consideration
of the two motions, the responses and replies thereto,
the relevant law, and for the reasons discussed
below, the Court DENIES the Motion to Alter
Dismissal2 and DENIES the Motion to Bifurcate.
I.
Background
On June 17, 2004, Mr. Hawkesworth, Raphel
Douglas, Mr. Scantlebury, Mr. Gaskin and Terrence
Sugrim were indicted on drug conspiracy and
On January 29, 2018, this Court entered an order
denying the pending motions without prejudice, noting that: (1)
the Court of Appeals for the District of Columbia Circuit had
not yet decided whether a dismissal without prejudice of a
criminal case is appealable; and (2) to the extent movants
sought reconsideration of the Court’s dismissal without
prejudice, the Court was without briefing on United States v.
Bagcho, 227 F. Supp. 3d 28, 31 (D.D.C. 2017) and the relevant
cases discussed therein. Movants moved for reconsideration of
the Court’s order on various grounds and convinced the Court
to vacate its order. In so doing, movants argued that their
reliance on the Court’s authority to reconsider its dismissal
order based on the Court’s inherent equitable power “trumps”
the authority the Court pointed to in the Bagcho line of cases,
but that they nonetheless would meet any standard set forth in
those cases. Mot. for Reconsideration of Order, ECF No. 122-2
at 8, 14-15. The government did not respond substantively to
the Court’s order nor the movants’ motion and requested the
opportunity to respond substantively if the Court vacated its
Order. Because the Court has determined that it can reconsider
its Order dismissing the case without prejudice de novo based
on the fully-briefed motions, including the government’s
briefing on whether the Court should dismiss the complaint
with prejudice over the government’s objections pursuant to
Federal Rule of Criminal Procedure 48(a), see Gov’t Opp’n, ECF
No. 109 at 9-17, the Court does not need additional briefing
from the government, which the government could have
provided in its February 7, 2018 response. See ECF No. 123.
2

18a

distribution charges. See Indictment, ECF No. 4.
Count I charged all four defendants with conspiracy
to manufacture and distribute five kilograms or more
of a substance containing a detectable amount of
cocaine, intending and knowing that it would be
unlawfully imported into the United States. Id. at 26. The timeframe for this conspiracy was in or about
January 1999 through at least May 27, 2004. Id. at
2. Among other overt acts in furtherance of this
conspiracy, the Indictment charged that “[o]n or
about September 20, 2003, Hawkesworth, Douglas,
Scantlebury, Sugrim, and other co- conspirators
shipped 184 kilograms of cocaine from Guyana to
JFK airport in New York.” Id. at 5. Count II charged
Mr. Hawkesworth and Mr. Douglas with distributing
500 grams or more of a substance containing a
detectable amount of cocaine, intending and knowing
that it would be unlawfully imported into the United
States. Id. at 6-7.
A.
Extradition Request for Mr.
Hawkesworth, Mr. Scantlebury,
and Mr. Sugrim
Movants were located in Barbados. The
government’s extradition request for the movants
included, among other things: (1) Affidavit in support
of request for extradition of Stephen May, a Senior
Trial Attorney with the Department of Justice (“May
Hawkesworth Affidavit”) dated July 9, 2004; (2)
Affidavit of Drug Enforcement Administration
Special Agent Gordon Patten, Jr. (“Patten
Hawkesworth Affidavit”) dated July 9, 2004; and (3)
Affidavit of the Confidential Source (“CS” or
“informant”) dated July 16, 2004. ECF No. 131-1 at
1, 13, 35.3
The May Hawkesworth Affidavit contains no
specific information regarding the September 2003
When citing electronic filings throughout this opinion,
the Court cites to the ECF header page number, not the
original page number of the filed document.
3

19a

shipment of 184 kilograms of cocaine from Guyana to
JFK airport described in Count I of the Indictment.
See generally May Hawkesworth Affidavit, ECF No.
131-1 at 1-12. With regard to Count I, the May
Hawkesworth Affidavit states that the government’s
evidence consists of:
the testimony of the Cooperating Source
who dealt directly with each of the
defendants, the testimony of DEA agents,
recorded telephone conversations
with
HAWKES WORTH [sic], SCANTLEBURY
and other co-conspirators, recorded meetings
with each of the defendants, videotape
recordings of meetings with each of the
defendants, and corroborative evidence
including photographs, telephone records,
hotel records,
passport records, airline
records, and physical evidence including the
purchase and seizure of cocaine from this
drug trafficking organization.
Id. at 7. The May Hawkesworth Affidavit contains no
information regarding the reliability of the
informant. See generally id. at 1-12.
With regard to the September 2003 shipment
of 184 kilograms of cocaine from Guyana to JFK
airport described in Count I, the Patten
Hawkesworth Affidavit states as follows:
Approximately October 16, 2003, the CS
called me and reported that Scantlebury had
told him that there had been a large
seizure of the organization's cocaine at JFK
airport in September in New York. He was
told that nobody was arrested. Based on this
information, I contacted DEA Special Agent
Warren Franklin, who is assigned to the
New York Airport Group at JFK, and
20a

requested that they review their seizures for
the previous month. The only significant
seizure was 184 kilograms of cocaine which
occurred on September 20, 2003. The cocaine
had arrived on a flight from Guyana, in a
shipment of frozen sea food. Later that day,
the CS met with Terrence SUGRIM and
HAWKES WORTH and was informed that
they had lost a load of 180
kilograms
of
cocaine, which had been shipped to JFK
airport in New York, and seized by U.S.
Customs.
Patten Hawkesworth Affidavit, ECF No. 131-1 at 1819. The Patten Hawkesworth Affidavit provides the
following information about the experience and
reliability of the informant: “[t]his CS has worked
with the DEA for approximately 5 years and has
proven to be completely reliable.” Id. at 15.
Movants were arrested on provisional arrest
warrants from the United States in 2004. Motion to
Alter Dismissal to Dismissal with Prejudice (“Mot.”),
ECF No. 106 at 21; Gov’t Opp’n, ECF No. 109 at 3.
Movants challenged their extradition and Mr.
Hawkesworth and Mr. Scantlebury were released on
bail in 2004, with Mr. Gaskin being released on bail
in 2005. Mot., ECF No. 106 at 17; Gov’t Opp’n, ECF
No. 109 at 3. In 2011, movants’ bail was revoked.
Mot., ECF No. 106 at 27, Gov’t Opp’n, ECF No. 109
at 3. In or around November 2013, Mr. Gaskin
waived his objections to extradition. Mot., ECF No.
106 at 18; Gov’t Opp’n, ECF No. 109 at 3. On
January 9, 2014, this Court granted the
government’s motion to dismiss, and the movants
were released from custody that same day. Order,
ECF No. 79; Mot., ECF No. 106 at 18; Gov’t Opp’n,
ECF No. 109 at 7.
B.
Mr.
Douglas’
Extradition
and
Appearance Before this Court
21a

Mr. Douglas was extradited from Barbados in
October, 2005, see Gov’t Opp’n, ECF No. 109 at 15,
based on the August 3, 2005 sworn statement of Mr.
May (“May Douglas Statement”). See May Douglas
Statement, ECF No. 128-2. Mr. May stated, among
other things, that “[o]n September 20, 2003, agents
from the United States Immigration and Customs
Enforcement (ICE) seized 184 kilograms of cocaine in
unmanifested boxes at JFK [airport]. No one was
arrested in connection with that case.” Id. ¶ 6.
Regarding the credibility of the informant who “dealt
directly with each of the defendants” and would
provide eyewitness testimony, Mr. May stated as
follows:
This CS has worked with DEA since 1999 on
this and other cases. His prior cooperation
with DEA, Bridgetown Country Office,
Barbados, has resulted in six successful cases,
several drug seizures, and the indictment and
conviction of several major drug traffickers.
He has testified at trial, sworn to affidavits
before federal judges, appeared before federal
grand juries and his success rate has been
100%. He has been found to be completely
reliable by DEA and currently is “registered”
as a CS with DEA.
Id. ¶¶ 25-26. Mr. Douglas’ bench warrant was
executed on October 17, 2005, see ECF No. 5, and his
first appearance before this Court occurred on
October 25, 2005. Minute Entry of October 25, 2005.
At a February 12, 2007 pretrial hearing before
this Court, the government informed the Court that
it would not pursue the portion of the indictment
that alleged Mr. Douglas’ connection to the 184
kilograms of cocaine that were seized at JFK airport,
see Feb. 12, 2007 Hr’g Tr. 8:7-9, and that “this case
really comes down to that two-kilogram deal” in
Barbados. Id. 12:6-7. The government also
acknowledged that “the core of the case is the
22a

testimony of the informant” and thus the credibility
of the informant is significant.” Id. 21:13-17. Finally,
the government acknowledged “that the person we
believe to be the informant in this case was involved
in drug trafficking from 1996 to 1998” and the
government did not provide this information to Mr.
Douglas’ attorney. Id. 23:10-24:14.
When the hearing resumed the next day, the
government informed the Court that it had learned
from another prosecutor that the informant had been
involved in criminal matters with a defendant in an
unrelated case, but that if questioned, the informant
would contradict that prosecutor. Feb. 13, 2007 Hr’g
Tr. 3:4-23. The government also stated that in the
May Douglas Statement there was one misstatement
and one omission. The misstatement was about the
informant’s credibility since the government now
knew that he would contradict the statement of a
federal prosecutor. Id. 5:21-25. The omission was
that no one else had been arrested in relation to the
seizure of the 184 kilograms of cocaine at JFK
airport. Id. 6:2-12. The Court requested that Mr.
May attend a resumed hearing to explain the
misstatement and omission in his affidavit, but when
the Court later was informed that the government
and defendant had reached a plea deal, the Court
declined to question Mr. May. Id. 16:15-17:12, 23-25.
At a hearing on February 16, 2007, the
government orally moved to dismiss, without
prejudice, the charges against Mr. Douglas. Minute
Entry of Feb. 16, 2007. The Court dismissed the
charges as to Mr. Douglas only on February 22, 2007.
Order, ECF No. 64.
C.
Eastern District of New York Case
On February 20, 2007, Mr. Douglas, Mr.
Hawkesworth, and Mr. Sugrim were indicted in the
Eastern District of New York. Counts One through
Four charged two or more of the defendants with the
manufacture/distribution, conspiracy to distribute,
and importation of narcotics. See United States v.
23a

Douglas, Crim. Action No. 07-137, ECF No. 3,
(E.D.N.Y.). In Counts Five and Six, Mr. Douglas was
charged with the using a telephone to facilitate the
commission of a felony. Id.
Mr. Douglas challenged his extradition and
moved to dismiss the charges. At a December 17,
2007 hearing regarding that motion, the government
acknowledged
inaccuracies
in
the
affidavit
supporting the United States’ request for Mr.
Douglas’ extradition. ECF No. 106-3 at 46-47. The
transcript of that hearing is not available on the
docket for that case, but it was provided by movants
as an attachment to their motion. See generally id.
The government stated that the May Douglas
affidavit contained the following inaccuracies:
(1)
The statement at paragraph 6 that
no one was arrested in connection with the
seizure of 184 kilograms of cocaine at JFK
airport because people had been arrested in
connection with the case.
(2)
Statements
at
paragraph
26
regarding the experience of the confidential
source; specifically: (a) he had not worked on
six successful cases in cooperation with the
Drug Enforcement Agency’s Bridgetown
Country Office in Barbados, but on a fewer
number; (b) he never testified at trial; (c) he
never swore to affidavits before federal
judges; and (d) he had appeared before one
grand jury, not multiple grand juries.
Id. at 49-51.
(3)
Statements at paragraphs 37 and
44 that telephone calls were recorded
because they were not.
Id. at 51-52. The government also noted that the
affidavit omitted mentioning that the informant: (1)
had a prior felony conviction; (2) was a paid
24a

informant; and (3) the information learned from
another prosecutor that the informant had been
involved in criminal matters with a defendant in an
unrelated case, but that if questioned, the informant
would contradict that prosecutor. Id. at 53-54; 79-82.
Following the hearing, Judge Dearie denied
the motion to dismiss the case. Mr. Douglas plead
guilty to Count Five and was sentenced on April 14,
2008. United States v. Douglas, Crim. Action No. 07137, ECF No. 35, (E.D.N.Y.). Thereafter, on May 12,
2015, the court granted the government’s motion to
dismiss the indictment against Mr. Hawkesworth
and Mr. Sugrim. Id. at ECF No. 42. The next day,
movant’s counsel in the case before this Court sought
leave to appear pro hac vice in that case. Id. at ECF
No. 42. Mr. Hawkesworth and Mr. Sugrim have not
moved to alter the dismissal of that case to one with
prejudice. See generally docket for United States v.
Douglas, Crim. Action No. 07-137 (E.D.N.Y.).
D.
Resolution of Case Against Movants
On December 24, 2013, the government moved
to dismiss the indictment without prejudice against
the movants here. Mot. to Dismiss, ECF No. 78. The
motion was filed under seal and, according to the
government, was not served on the defendants
because “[t]hree of the defendants are in Barbados . .
. and, to the government’s knowledge, United States
counsel has not been identified, retained, or
appointed as counsel for service of process purposes.”
Id. at 3. The Court granted the government’s motion
on January 9, 2014. Order, ECF No. 79. Defendants
were released from prison the same day that the
Court granted the government’s motion. Mot., ECF
No. 106 at 28; Gov’t Opp’n, ECF No. 109 at 7.
II.
Analysis
A.
The Court’s Order Dismissing the
Case without Prejudice was Likely
Not Appealable
The government contends that movants seek
to circumvent the appellate review process with the
25a

motion to alter judgment because “[w]hether this
case should have been dismissed with or without
prejudice should have been addressed by the D.C.
Circuit through a timely appeal” of the Court’s
Order. Gov’t Opp’n, ECF No. 109 at 7. Pursuant to
Federal Rule of Appellate Procedure 4(b)(1)(A), a
notice of appeal is due 14 days after the entry of the
order being appealed. The government states that
“on the same day [that the Court dismissed the case
without prejudice] Barbadian officials released the
Defendants, thereby putting them on notice of the
Court’s dismissal.” Id. Thus, according to the
government, movants’ appeal was due on due on
January 23, 2014, or in the alternative, if that
deadline was tolled due to the defendants not having
been served with the Order, on September 24, 2015,
which was 14 days after the Court unsealed the case.
Id. at 7-8.
The government relies on precedent in the
civil context to argue that dismissal without
prejudice is appealable. However, precedent in the
Court of Appeals for the District of Columbia Circuit
(“D.C. Circuit”) is clear that this Circuit has not yet
decided whether an order dismissing a criminal case
without prejudice is appealable. See United States v.
Glover, 377 F. App'x 20, 21 (D.C. Cir. 2010)(noting
appellants’ recognition that “this court has not
decided whether [a dismissal of an indictment
without prejudice for violation of the Speedy Trial
Act] is immediately appealable”). Moreover,
persuasive authority from other circuits that have
considered the question have determined that
dismissal of an indictment without prejudice is not a
final order for purposes of appeal. See, e.g., United
States v. Bert, 814 F.3d 70, 76 n.3 (2d Cir. 2016)
(“[Defendant] could not have immediately appealed
the dismissal of the indictment without prejudice
because that judgment was neither a ‘final order’
within the meaning of 28 U.S.C. § 1291, nor a
collateral order.”); United States v. Kuper, 522 F.3d
302, 303 (3d Cir. 2008)(“Every court of appeals that
26a

has considered the appealability of an order
dismissing an indictment without prejudice has held
such an order is not final and appealable under §
1291.”); United States v. Thompson, 814 F.2d 1472,
1474 (10th Cir. 1987) (“[Defendant] was not injured
by the dismissal of the information because the
judgment was terminated in his favor, and only one
who has been injured by a judgment may seek review
on appeal.”); United States v. Martin, 682 F.2d 506,
507 (5th Cir. 1982) (“The defendants appeal the
district court's dismissal without prejudice of a nine
count indictment charging them with mail fraud.
They contend the dismissal should have been with
prejudice. Because there has been no final decision
within the meaning of 28 U.S.C. § 1291, we dismiss
for lack of jurisdiction.”); United States v. Lanham,
631 F.2d 356, 357 (4th Cir. 1980) (“We find that a
dismissal without prejudice is not immediately
reviewable and we therefore dismiss the appeals.”);
see generally 15B Wright & Miller Fed. Prac. & Proc.
Juris. § 3918.3 (2d ed.) (“Grant of a government
motion to dismiss without prejudice surely would
seem a final order, supporting appeal by the
defendant to argue that dismissal should have been
with prejudice. It seems settled, however, that
appeal cannot be taken.”).
In view of this persuasive authority, it is not
at all clear that the Court’s Order would have been
appealable, even if it had been served on movants at
the time it was issued or timely appealed after the
case was unsealed. Pursuant to this authority,
because there has been no final decision in this case,
the Court retains jurisdiction to consider this motion.
B.
The Court Can Reconsider its Order
Dismissing the Indictment Without
Prejudice
The next question is whether this Court can
reconsider its Order dismissing the case without
prejudice. Although the Federal Rules of Criminal
Procedure do not provide for motions for
reconsideration, judges in this district have assumed,
27a

without deciding, that they may consider such
motions. United States v. Bagcho, 227 F. Supp. 3d 28,
31 (D.D.C. 2017)(citing United States v. Hong Vo,
978 F.Supp.2d 41, 47 (D.D.C. 2013); United States v.
Cabrera, 699 F.Supp.2d 35, 40 (D.D.C. 2010); United
States v. Cooper, 947 F.Supp.2d 108, 109 (D.D.C.
2013)). The Court will do the same.
Various standards of review have been used
when considering such motions in this context:
In some cases, judges have adopted the
“as justice requires” standard of Rule 54(b)
of the Federal Rules of Civil Procedure,
which permits reconsideration when a
court has “patently misunderstood the
parties, made a decision beyond the
adversarial issues presented, [or] made an
error in failing to consider controlling
decisions or data, or [where] a controlling
or significant change in the law has occurred.”
Hong Vo, 978 F.Supp.2d at 47–48 (quotation
marks and citations omitted). In other cases,
judges have adopted the standard from Rule
59(e) of the Federal Rules of Civil Procedure,
under which a motion for reconsideration
need not be granted unless there is an
“intervening change of controlling law, the
availability of new evidence, or the need to
correct a clear error or prevent manifest
injustice.” Cabrera, 699 F.Supp.2d at 40–41
(quotation marks and citations omitted). Rule
59(e) motions must be filed within 28
days after the entry of judgment. Fed. R. Civ.
P. 59(e). Finally, some judges have
denied motions for reconsideration after
considering the issues de novo, without
deciding on a standard of review. E.g.,
28a

Cooper, 947 F.Supp.2d 108; United States v.
Thompson, No. 07–153–08, 2007 WL
1954179 (D.D.C. July 5, 2007).
United States v. Bagcho, 227 F. Supp. 3d at 31.
Because this Court can consider and deny
movant’s “motion for reconsideration based on a de
novo review, it is unnecessary to decide on the proper
standard of review or the deadline for filing a motion
for reconsideration.” Id. A de novo review is
appropriate
because
the
movants,
whose
whereabouts were known to the government, were
not served with the government’s motion to dismiss.
See Mot. to Dismiss, ECF No. 78 at 3 (“Three of the
defendants are in Barbados . . . and, to the
government’s knowledge, United States counsel has
not been identified, retained, or appointed as counsel
for service of process purposes.”) At the time the
motion was filed, the case was under seal. As
movants correctly note, Federal Rule of Criminal
Procedure 49(a),(b) requires “[a] party [to] serve on
every other party any written motion” “in the
manner provided for a civil action.” Federal Rule of
Civil Procedure 5(a) requires non-ex parte written
motions to be served on every party. The
government, in its certificate of service, does not
contend that the motion was an ex parte motion, but
states that it could not serve the movants because
they were not represented. Since movants were not
represented, they should have been served with a
paper copy of the government’s motion to dismiss per
Local Civil Rule 5(d)(2)(“A separate certificate of
service or other proof of service showing that a paper
copy was served on a party is required when that
party does not receive electronic notification of
filings”). Since movants were not served, they did not
have the opportunity to oppose the motion prior to
the Court’s Order. Movants are now represented and
contest the dismissal without prejudice. Therefore,
the Court will reconsider its dismissal order based on
a de novo review.
29a

C.

Federal Rule of Criminal Procedure
48(a)
Movants argue that Count I4 should be
dismissed with prejudice because: (1) they did not
commit the acts alleged; (2) the government did not
allege a crime against them because 25 other people
were arrested and convicted for the 184 kilogram
interdiction; and (3) the government has admitted
that the case is only about the two kilograms of
cocaine charged in Count II. Mot., ECF No. 106 at
31-33. Movants argue that the government’s
“admission” requires dismissing Count I on various
substantive grounds: (1) it does not state an offense;
(3) it resulted from grand jury proceeding error; (4) it
lacks specificity; and (5) it lacks the agreement a
conspiracy charge requires. Id. at 33.
Movants further argue that the Court should
grant its motion to sanction the government because
of its: (1) failure to correct information provided in
the extradition affidavits; (2) deceit regarding
movants’ involvement with the JFK cocaine
interdiction; (3) deceit regarding the informant’s
credibility; (4) bad-faith duplicative prosecution of
Mr. Hawkesworth and Sugrim in New York; (5)
failure to serve movants or their Barbadian counsel
with the government’s motion to dismiss; (6) keeping
movants in prison when the government knew that
prison was not justified; and (7) keeping movants in
prison for two weeks longer than they should have
been because the government’s motion to dismiss did
not convey any sense of urgency to Court. Mot., ECF
No. 106 at 45-58.
Federal Rule of Criminal Procedure Rule 48(a)
Movants also request that Count II against Mr.
Hawkesworth be dismissed with prejudice. In view of Mr.
Hawkesworth’s death, the relief sought is moot. See infra n.1.
To the extent movants seek a holding from this court that Mr.
Hawkesworth was charged without probable cause, the Court
declines to so hold. See supra at 23-24.
4

30a

provides that at any time before trial “[t]he
government may, with leave of court, dismiss an
indictment.” Fed.R.Crim.P. 48(a). “The discretion of
whether to dismiss an indictment, and whether to
dismiss it with or without prejudice, lies in the first
instance with the prosecutor. Because that discretion
implicates the constitutional doctrine of separation of
powers, the district court’s role in reviewing the
prosecutor’s exercise of its discretion is limited.”
United States v. Florian, 765 F. Supp. 2d 32, 34
(D.D.C. 2011)(citation omitted). “Generally speaking,
there is a strong presumption in favor of dismissal
without prejudice over one with prejudice.” Id.
(citation omitted). “Where [] the dismissal does not
arise from a constitutional violation, dismissal is
normally without prejudice.” Id. (citing United States
v. Simmons, 536 F.2d 827, 833 (9th Cir.), cert.
denied, 429 U.S. 854 (1976)). “Nonetheless, in
exceptional circumstances, the district court may
deny the prosecutor leave to dismiss an indictment
without prejudice. As the case law makes clear, this
will rarely be appropriate.” Id. (internal citation
omitted).
“When
the
prosecutor’s
discretion
is
challenged, the prosecutor has the initial burden of
explaining that a dismissal without prejudice would
be in the public interest. Once the prosecutor has
discharged that threshold burden, its decision is
presumptively valid and the district court may not
substitute its judgment for that of the prosecutor
even if it might have reached a different conclusion
were it presented with the issue in the first
instance.” Id. at 35. That presumption can be
“rebutted when the motion to dismiss contravenes
public interest because it is not made in good faith.”
Id. (internal citations and quotations omitted).
“There does not appear to be a great deal of
precedent elucidating what would and what would
not call for a refusal to permit a prosecution to
proceed at [a] subsequent time.” United States v.
Karake, Crim. Action No. 02-256, 2007 WL 8045732
31a

at *1 (D.D.C. Feb. 27, 2007). “What precedent there
is, however, suggests that the Court should consider
three factors. First, leave to dismiss with prejudice is
warranted when allowing re- prosecution “would
result in harassment of the defendant or would
otherwise be contrary to the manifest public
interest.” Id. “Second, in addition to considering
whether the government is attempting to harass
defendants or gain a tactical advantage, courts have
considered whether dismissal without prejudice
would condone disregard for the Federal Rules of
Criminal Procedure.” Id. at *2. “Third, courts have
granted leave to dismiss with prejudice when
reprosecution would go ‘against the concept of
fundamental fairness.’” Id. at *3 (citation omitted).
“Relevant considerations include ‘the strain on the
defendant, that prosecutorial discretion in choosing
to indict and proceed has resulted in multiple
mistrials, that retrials tend to be unsatisfactory, that
witnesses are subjected to repeated inconveniences
by retrials, ... the urgency of more significant court
business,’ whether prior trials have ‘resulted in an
indication of reasonable doubt in the minds of a
substantial majority of the jury members,’ and
whether the rationale behind the government’s Rule
48 motion is ‘vague.’” Id.
On December 24, 2013, the government moved
to dismiss the indictment without prejudice, stating
that “[t]he request is made in good faith, and based
upon, among other factors, the age of the case,
government resources, and other factual and legal
issues which indicate the case is no longer viable.”
Mot. to Dismiss, ECF No. 78 at 1. In addition to the
reasons given in the government’s original motion to
dismiss, in its opposition briefing, the government
notes one additional ground: “to avoid the potential
of protracted litigation which could arise if all three
defendants were not extradited together.” Gov’t
Opp’n, ECF No. 109 at 17.
With regard to the first factor set forth in
Karake, the government states that this case was
32a

prosecutable at the time it was dismissed and is
prosecutable today. Gov’t Opp’n, ECF No. 109 at 14.
The government argues that the dismissal without
prejudice did not result in the harassment of the
defendants, nor was it contrary to the public interest
because “there was no strategic maneuvering by the
Government or a tactical decision to dismiss the case
without prejudice while working to cure defects in
the Government’s case in order to re-prosecute
Defendants.” Id. With regard to the second Karake
factor, the government asserts that neither its
“earlier motion to dismiss, nor any other litigation
tactics or pleadings, [] violate[d] the Federal Rules of
Criminal Procedure.” Id. With regard to the third
Karake factor, the government asserts that
“reprosecution of this case would not go against
fundamental fairness. There have been no mistrials,
let alone multiple mistrials; witnesses have not been
subjected to any inconvenience by trials; and the
Government has provided substantial basis for its
prior motion to dismiss. . . Moreover, the charges in
this case . . . are very serious charges involving a
statutory maximum sentence of life imprisonment,
which weighs in favor of dismissal without
prejudice.” Id. at 15.
Movants attempt to rebut the presumption
that the motion to dismiss was made in good faith,
arguing that that the government acted in bad faith
because: (1) it brought “substantially the same
litigation in New York” against two of the movants
here; and (2) the government’s failure to correct the
false statements made in support of extradition
constitutes “deceit, malice, and bad faith.” Reply,
ECF No. 111 at 28. Movants argue that the
prosecutorial misconduct that occurred in this case is
itself exceptional. Id. at 29. Movants further argue
that the Court does not need to find that a
constitutional violation occurred in this case because
“the
government’s misconduct
provides the
exceptional circumstances that obviate constitutional
questions now, given the conduct described here and
33a

in Movants’ memorandum.” Id.
Movants argue that the charges are not grave
because: (1) “Count I simply did not happen, and the
government has admitted it” Id. at 30. Movants also
argue that the government violated Federal Rule of
Criminal Procedure 16 by withholding information,
identifying the informant’s affidavit as information
that was withheld. Id. at 31. Movants further argue
that the government violated various rules of
professional conduct by failing to correct the
information in the extradition affidavit, by
maintaining a charge that is not supported by
probable cause, and by filing the motion to dismiss
the indictment on Christmas Eve, thereby
preventing the movants from being able to be home
for Christmas. Id. at 31-33.
Finally, movants argue that dismissal with
prejudice is appropriate as a matter of fundamental
fairness to “end not only the government’s threats .
. and misconduct . . . but also future litigation, with
its resulting burdens on courts, witnesses in
Barbados, and the Movants themselves.” Id. at 34.
D.
Dismissal with Prejudice is not
Warranted
For the reasons explained below, the Court
will deny the motion because the movants have
failed to rebut the presumption that the government
sought dismissal in good faith and because the
circumstances here do not rise to the level of being
exceptional, thereby warranting dismissal with
prejudice. See United States v. Florian, 765 F. Supp.
2d at 34-35. Additionally, the Karake factors are
inapplicable to the circumstances here. See United
States v. Karake, 2007 WL 8045732 at *2-*3.
As an initial matter, movant’s request that the
Court dismiss the indictment with prejudice because
there was a lack of probable cause of criminal
conduct is squarely foreclosed by Supreme Court
precedent. “The grand jury gets to say – without any
review, oversight, or second-guessing—whether
34a

probable cause exists to think that a person
committed a crime.” Kaley v. United States, 134 S.Ct.
1090, 1098 (2014).
Movants contend that dismissal with prejudice
is warranted because they did not commit the acts
alleged in Count I. Movants’ theory is that: (1)
because 25 other people were charged in relation to
the JFK interdiction, the government cannot claim
movants had anything to do with it; and (2) the
government made an “admission against interest”
when it stated before this Court that the case is only
about the two kilograms of cocaine charged in Count
II. Movants’ theory is unavailing for two reasons.
First, the fact that 25 others were charged in relation
to the JFK interdiction does not in and of itself mean
that movants could not have been connected to that
interdiction as part of the conspiracy. Second, the
government’s “admission against interest” was made
in the context of the case against Mr. Douglas; not
the movants here. In any event, the indictment
against movants has been dismissed—there are no
pending charges. Had this case gone to trial, the
movants would have been able to present evidence in
support of their assertions of innocence. This motion
is not the venue for a determination of the movants’
innocence of the charges.
To the extent movants contend that the
government acted in bad faith by failing to inform
Barbardian officials of misstatements in the
affidavits in support of extradition, movants’ are
wrong about the facts supporting this argument. The
statements about which they complain were made in
the affidavits supporting the extradition of Mr.
Douglas; not the affidavits supporting the
extradition of movants. Specifically, the May
Hawkesworth Affidavit says nothing about the JFK
seizure. See generally ECF No. 131-1 at 1-12. With
regard to that seizure, the Patten Hawskesworth
Affidavit states as follows: “Approximately October
16, 2003, the CS called me and reported that
Scantlebury had told him that there had been a large
35a

seizure of the organization's cocaine at JFK airport
in September in New York. He was told that nobody
was arrested.” Id. at 18-19. It is clear from this
language that Special Agent Patten is not
representing to Barbadian officials that nobody was
arrested, but rather that either Scantlebury was told
nobody was arrested or the infomant was told by
Scantlebury that no one was arrested. Because the
movants are wrong about the facts upon which this
argument relies, the Court need not reach movants’
legal arguments, see Mot., ECF No. 106 at 45-50, nor
their arguments that the government violated
various rules of professional conduct. See Reply, ECF
No. 111 at 32. In sum, the Court cannot find that the
government acted in bad faith by not correcting
information that did not need to be corrected.
Similarly, the May Hawkesworth Affidvait
says nothing about the reliability of the informant.
See generally ECF No. 131-1 at 1-12. The only
statement about the informant in the Patten
Hawkesworth Affidavit is: “[t]his CS has worked
with the DEA for approximately 5 years and has
proven to be completely reliable.” Id. at 15. Movants
argue that the informant’s reliability was “falsely
inflated” as part of the extradition process and that
the government had an obligation to correct it. Mot.,
ECF No. 106 at 51. Movants point to Florida v.
Harris, where the Supreme Court considered “how a
court should determine if the ‘alert’ of a drugdetection dog during a traffic stop provides probable
cause to search a vehicle.” 568 U.S. 237, 240 (2013),
which is clearly inapposite here. The Court is aware
that in the Douglas matter, the government
admitted that the affidavits omitted information
about the informant’s prior felony conviction, the fact
that he was a paid informant, and his criminal
activity in another case. The context for those
omissions, however, was detailed information about
the informant’s credibility in the Douglas affidavits.
Here, by contrast, there is one short statement
regarding the informant’s reliability.
36a

The Court is troubled by the testimony of Mr.
May and Special Agent Patten at the December 17,
2007 hearing in the New York case. ECF No. 106-3.
That testimony clearly raises credibility issues with
regard to the affiants as well as the credibility of the
informant. That said, the fact that there are
credibility issues, which could be addressed during
pretrial proceedings or on cross examination, is not
an “exceptional circumstance” warranting a
dismissal with prejudice. See United States v.
Florian, 765 F. Supp. 2d at 34. Movants are also
wrong on the facts relating to the informant’s
affidavit. Movants contend that the government
violated Federal Rule of Criminal Procedure 16 by
failing to disclose the informant’s affidavit. The
informant’s affidavit was filed under seal on the
docket in this case on July 16, 2004. On September
10, 2015, the Court ordered the unsealing of the case
with the exception of certain filings, which were to be
unsealed after the government made appropriate
redactions. Minute Order of Sept. 10, 2015.
According to a government notice filed on September
14, 2015, the Clerk of Court was unable to locate the
sealed file containing the original paper filings of the
documents to be redacted. Notice, ECF No. 97. On
April 27, 2018, the parties were informed via a
Minute Order that the sealed file had been located,
and the government was directed to make proper
redactions to the relevant documents. Minute Order
of Apr. 27, 2018. On May 17, 2018, the redacted
affidavit was filed on the docket. ECF No. 131.
Consequently, there has been no withholding of the
affidavit by the government. The informant’s
affidavit is on the public docket in this case.
Therefore, movants’ reliance on the second Karake
factor—the violation of the Federal Rules of Criminal
Procedure—in support of their motion is misplaced.
Movants also complain that the government
acted cruelly and unethically by filing the motion to
dismiss on December 24, 2013 without alerting the
Court to the urgency of the motion. This Court has
37a

no patience for illegal incarceration. That said, since
the movants could not have been released until the
Court granted the government’s motion, the Court
cannot find that the government’s failure to alert the
Court to the urgency of the motion in and of itself
constitutes
an
“exceptional
circumstance”
warranting a dismissal with prejudice. See United
States v. Florian, 765 F. Supp. 2d at 34.
Regarding the remaining alleged prosecutorial
misconduct, movants speculate that the government
“[m]oved the prosecution of Mr. Douglas to New York
to evade this Court’s scrutiny and falsely designated
the New York case as related to another case,” that
the government “appears to have handpicked the
New York judge by misrepresenting the related-case
status,” and that the government “[f]ailed to disclose
to this Court that the triggering event for the motion
to dismiss was an imprisoned Movant’s having
waived extradition.” Mot., ECF No. 106 at 44, 52. As
an initial matter, this Court presided over the
February 2007 hearings regarding Mr. Douglas, and
did not find what it learned at that time to be a basis
to dismiss the charges against Mr. Douglas with
prejudice. Furthermore, movants’ speculations about
the government’s motivations and actions neither
rebut the presumption of good faith nor do those
speculations satisfy the exceptional circumstances
standard. See United States v. Florian, 765 F. Supp.
2d at 34.
Movants also contend that the filing of
duplicative charges is indicative of bad faith. Mot.,
ECF No. 106 at 34. However, the case cited in
support, United States v. Ammidown, merely states
that the primary purpose of Rule 48(a) is “protecting
a defendant from harassment, through a prosecutor's
charging, dismissing without having placed a
defendant in jeopardy, and commencing another
prosecution at a different time or place deemed more
favorable to the prosecution.” 497 F.2d 615, 620 (D.C.
Cir. 1973). Ammidown is inapposite because at issue
in that case was whether a trial judge exceeded his
38a

discretion when he rejected a plea bargain “on the
ground that the public interest required that the
defendant be tried on a greater charge” id. at 617,
and not whether the filing of duplicative charges is
indicative of bad faith. United States v. Borges, 153
F. Supp. 3d 216 (D.D.C. 2015), provides a compelling
example of circumstances requiring dismissal with
prejudice over the objection of the government.
There, one of the special agents who had assisted in
the investigation had been suspended pending a
criminal investigation of whether he had engaged in
misconduct by tampering with evidence in other
cases. Id. at 218. According to the government, the
agent’s
involvement
with
defendants’
case
“undermined the integrity of the prosecution”
warranting dismissal. Id. at 219 (internal quotations
omitted). When pressed to explain why the dismissal
should be without prejudice, the government stated
that defendants could hypothetically be reprosecuted
if the agent affirmed that he had not tampered with
any evidence in defendants’ case. Id. at 220.
Concluding that “the ongoing threat that the
Government may change course at a later date [wa]s
itself the very type of harassment that warrant[ed] a
with prejudice dismissal,” the court held that the
government’s conduct “objectively amount[ed] to
harassment” requiring dismissal with prejudice. Id.
at 221. Here, by contrast, movants do not claim that
the government plans to commence another
prosecution;5 rather they state that converting the
dismissal to one with prejudice would be helpful in
the civil actions6 they have filed. Mot., ECF No. 106
Movants only statement in this regard is that since the
government still views its claims against as viable, it could reprosecute, assuming that challenging extradition tolls the
statute of limitations, Mot., ECF No. 106 at 30-31
5

In Gaskin, et. al v. US, Civil Action No. 15-23, Mr.
Gaskin and Mr. Scantlebury bring claims for: (1) wrongful
prosecution; (2) wrongful imprisonment; and (3) restrictions on
the right to travel and to associate freely. In Gaskin et. al v.
6

39a

at 18. Therefore, movants cannot rely on the first
Karake factor. Similarly, movants’ reliance on the
third Karake factor— fundamental fairness—is
misplaced. Movants have never appeared before this
Court, there have been no pretrial proceedings, and
there has been no trial, much less multiple trials.
In sum, the Court finds that movants have
failed to rebut the presumption that the government
acted in good faith in moving to dismiss the
indictment without prejudice. Furthermore, as the
analysis above makes clear, the circumstances here
are not exceptional, but rather are readily
explainable. Finally, none of the factors set forth in
Karake are applicable to the circumstances here.
Because the Court has assumed that it can
reconsider its order pursuant to Rule 48 on a de novo
basis, the Court need not consider whether it can
reconsider its order based on its inherent power.
Shepherd v. ABC, 62 F.3d 1469, 1475 (D.C.Cir.
1995)(“When rules alone do not provide courts with
sufficient authority to protect their integrity and
prevent abuses of the judicial process, the inherent
power fills the gap.”)(citation omitted).
E.
Personal Jurisdiction, Expungement, and Entrapment
Despite conceding D.C. Circuit precedent to
the contrary, movants argue that the United States
lacks personal jurisdiction over them to “preserve the
issue for appeal because the circuits are split on it.”
Mot., ECF No. 106 at 59 (citing United States v. Ali,
718 F.3d 929, 943 (D.C. Cir. 2013). Movants also
request that if the Court denies the relief sought,
that the order be “without prejudice to a future
motion to expunge movants’ arrest records for lack of
May et al., Mr. Gaskin, Mr. Scantlebury and Mr. Hawkesworth
bring claims for: (1) denial of due process; (2) unlawful search
and seizure; (3) deliberate indifference; (4) supervisory liability
for deliberate indifference; (5) and (6) federal tort claims act
violations.

40a

probable cause, entrapment, and lack of personal
jurisdiction.” Mot., ECF No. 106 at 60. The
government responds that “the law of the case
doctrine should apply to any future motions
addressing the same issue.” Gov’t Opp’n, ECF No.
109 at 30. Should movants seek additional relief
following the Court’s decision on the pending
motions, the Court will address any such request
consistent with applicable law.
F.
Motion to Bifurcate
Following Mr. Hawkesworth’s death, counsel
moved
to
bifurcate
consideration
of
Mr.
Hawkesworth’s claims because there are “additional
claims of a monetary nature (e.g. the seizure of
assets while Mr. Hawkesworth was wrongfully
imprisoned) that . . . survive [his] death even if the
other previously asserted claims have become moot
with Mr. Hawkesworth’s death.” Mot. to Bifurcate,
ECF No. 114-2 at 3. Counsel requests 30 days to
“work through the documentary evidence with
relevant third parties and prepare submission of
relevant evidence.” Id. at 4. The government
responds that movant’s motion “was untimely filed,
and the court must therefore deny the motion with
respect to all three movants” and that “any special
concerns raised by defense counsel regarding [Mr.]
Hawkesworth are irrelevant to the untimeliness of
[the] Motion to Alter Dismissal.” Gov’t Opp’n, ECF
No. 120 at 3.
“[M]otions for bifurcation are addressed to the
‘broad discretion’ of the trial judge.” Parman v.
United States, 399 F.2d 559, 561 (D.C. Cir.
1968)(citation omitted). As an initial matter, the
Court will disregard both parties essentially rebriefing and raising new arguments relevant to the
movant’s motion to alter judgment. See Gov’t Opp’n,
ECF No. 120 at 4-8, Reply, ECF No. 121 at 8-18. The
Court has reconsidered its dismissal order de novo,
and has determined that there are no grounds to
change the order to a dismissal with prejudice. Mr.
Hawkesworth’s alleged monetary claims existed at
41a

the time the Motion to Alter was filed, and should
have been asserted at that time. Mr. Hawkesworth’s
death does not change the fact that such claims were
not asserted in the motion to alter. Counsel’s
statement that “Movants viewed these claims as
more appropriately brought after the Court granted
the motion to alter the judgment” is nonsensical
because had the Court granted the motion to dismiss
with prejudice, that would have been a final and
appealable order. See 28 U.S.C. § 1291.
III. Conclusion
For the reasons set forth in this Memorandum
Opinion, the Court DENIES the Motion to Alter
Dismissal and DENIES the Motion to Bifurcate. A
separate Order accompanies this Opinion.
SO ORDERED.
Signed:
Emmet G. Sullivan
United States District Judge
June 21, 2018

42a

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Criminal No. 04-285 (EGS)
UNITED STATES OF AMERICA,
v.
FREDERICK HAWKESWORTH,
JOHN WAYNE SCANTLEBURY,
SEAN GASKIN
DEFENDANTS.
ORDER
For the reasons stated in the accompanying
Memorandum Opinion issued this same day, it is
hereby
ORDERED that the defendants’ Motion to
Alter Dismissal is DENIED; and it is further
ORDERED that defendants’ Motion to
Bifurcate is DENIED.
SO ORDERED.
Signed:
Emmet G. Sullivan
United States District Judge
June 21, 2018

43a

United States Court of Appeals for the
District of Columbia Circuit
No. 18-3043
September Term, 2018
1:04-cr-00285-3
Filed On: May 21, 2019
UNITED STATES OF AMERICA,
APPELLEE,
v.
JOHN WAYNE SCANTLEBURY, ALSO KNOWN
AS FREDERICK DAVIS, ALSO KNOWN AS JOHN

WAYNE TROTMAN,
APPELLANT.
Consolidated with 18-3044
BEFORE: PILLARD and KATSAS, Circuit Judges,
and EDWARDS, Senior Circuit Judge.
ORDER
Upon consideration of appellants’ petition for
panel rehearing filed on April 30, 2019, it is
ORDERED that the petition be denied.
Per Curiam

BY:

FOR THE COURT:
Mark J. Langer, Clerk
/s/
Michael C. McGrail
Deputy Clerk

44a

United States Court of Appeals for the
District of Columbia Circuit
No. 18-3043
September Term, 2018
1:04-cr-00285-3
Filed On: May 21, 2019
UNITED STATES OF AMERICA,
APPELLEE,
v.
JOHN WAYNE SCANTLEBURY, ALSO KNOWN
AS FREDERICK DAVIS, ALSO KNOWN AS JOHN

WAYNE TROTMAN,
APPELLANT.
Consolidated with 18-3044
BEFORE: Garland, Chief Judge; Henderson,
Rogers, Tatel, Griffith, Srinivasan, Millett, Pillard,
Wilkins, Katsas, and Rao, Circuit Judges; and
Edwards, Senior Circuit Judge
ORDER
Upon consideration of appellants’ petition for
rehearing en banc, and the absence of a request by
any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

BY:

FOR THE COURT:
Mark J. Langer, Clerk
/s/
Michael C. McGrail
Deputy Clerk
45a

U.S. CONST. art. III, §2
The judicial power shall extend to all cases, in law
and equity, arising under this Constitution, the laws
of the United States, and treaties made, or which shall
be made, under their authority; – to all cases affecting
ambassadors, other public ministers and consuls; – to
all cases of admiralty and maritime jurisdiction; – to
controversies to which the United States shall be a
party; – to controversies between two or more
states; – between a state and citizens of another
state; – between citizens of different states; – between
citizens of the same state claiming lands under grants
of different states, and between a state, or the citizens
thereof, and foreign states, citizens or subjects.
U.S. CONST. amend. V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a grand jury, except in cases arising in
the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor
shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property
be taken for public use, without just compensation.
18 U.S.C. §3238
The trial of all offenses begun or committed upon
the high seas, or elsewhere out of the jurisdiction of
any particular State or district, shall be in the district
in which the offender, or any one of two or more joint
offenders, is arrested or is first brought; but if such
offender or offenders are not so arrested or brought
46a

into any district, an indictment or information may be
filed in the district of the last known residence of the
offender or of any one of two or more joint offenders,
or if no such residence is known the indictment or
information may be filed in the District of Columbia.
28 U.S.C. §1291
The courts of appeals (other than the United
States Court of Appeals for the Federal Circuit) shall
have jurisdiction of appeals from all final decisions of
the district courts of the United States, the United
States District Court for the District of the Canal
Zone, the District Court of Guam, and the District
Court of the Virgin Islands, except where a direct
review may be had in the Supreme Court. The
jurisdiction of the United States Court of Appeals for
the Federal Circuit shall be limited to the jurisdiction
described in sections 1292(c) and (d) and 1295 of this
title.
FED. R. CRIM. PROC. 12(b)(1)-(3)
(b) Pretrial motions.
(1) In general. A party may raise by pretrial
motion any defense, objection, or request that the
court can determine without a trial on the merits.
Rule 47 applies to a pretrial motion.
(2) Motions that may be made at any time. A
motion that the court lacks jurisdiction may be made
at any time while the case is pending.
(3) Motions that must be made before trial. The
following defenses, objections, and requests must be
raised by pretrial motion if the basis for the motion is
then reasonably available and the motion can be
determined without a trial on the merits:
47a

(A) a defect in instituting the prosecution,
including:
(i) improper venue;
(ii) preindictment delay;
(iii) a violation of the constitutional right
to a speedy trial;
(iv) selective or vindictive prosecution;
and
(v) an error in the grand-jury proceeding
or preliminary hearing;
(B) a defect in the indictment or information,
including:
(i) joining two or more offenses in the same
count (duplicity);
(ii) charging the same offense in more
than one count (multiplicity);
(iii) lack of specificity;
(iv) improper joinder; and
(v) failure to state an offense;
(C) suppression of evidence;
(D) severance of charges or defendants under
Rule 14; and
(E) discovery under Rule 16.
FED. R. CRIM. PROC. 47
(a) In General. A party applying to the court for
an order must do so by motion.
(b) Form and Content of a Motion. A motion—
except when made during a trial or hearing—must be
in writing, unless the court permits the party to make
the motion by other means. A motion must state the
grounds on which it is based and the relief or order
sought. A motion may be supported by affidavit.
48a

(c) Timing of a Motion. A party must serve a
written motion—other than one that the court may
hear ex parte—and any hearing notice at least 7 days
before the hearing date, unless a rule or court order
sets a different period. For good cause, the court may
set a different period upon ex parte application.
(d) Affidavit Supporting a Motion. The moving
party must serve any supporting affidavit with the
motion. A responding party must serve any opposing
affidavit at least one day before the hearing, unless
the court permits later service.
FED. R. CRIM. PROC. 48(a)
(a) By the Government. The government may,
with leave of court, dismiss an indictment,
information, or complaint. The government may not
dismiss the prosecution during trial without the
defendant’s consent.

49a

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Holding a Criminal Term
Grand Jury Sworn in on March 3, 2003
CRIMINAL NO. 04-285
MAGISTRATE NO.

04-0317M-Ol
04-0318M-Ol
04-0319M-01
04-0320M-01
04-0321M-01

FILED IN OPEN COURT
JUN 17 2004
CLERK, U.S. DISTRICT COURT
DISTRICT OF COLUMBIA
UNITED STATES OF AMERICA,
v.
FREDERICK HAWKESWORTH
A/K/A/ CHRISTOPHER HAWKESWORTH A/K/A/
CHRISTOPHER HAWKSWORTH A/K/A/ "CHRIS"
RAPHEL CHRISTOPHER DOUGLAS
A/K/A RAFIE CHRISTOPHER DOUGLAS A/K/A/
CHRISTOPHER DOUGLAS A/K/A/ "CHRIS"
JOHN WAYNE SCANTLEBURY
A/K/A/ JOHN WAYNE TROTMAN
A/K/A/ FREDERICK DAVIS
SEAN GASKIN
TERRENCE SUGRIM
A/K/A/ TERRENCE EMMANU AL SEGRIM
DEFENDANTS.
50a

INDICTMENT
THE GRAND JURY CHARGES THAT:
INTRODUCTION
1. The FREDERICK CHRISTOPHER HAWKESWORTH organization was a Barbados-based
drug trafficking organization that distributed
cocaine and transported cocaine from Barbados,
Guyana and elsewhere to the United States.
2. HAWKESWORTH was the leader of the drug
trafficking organization in Barbados and was
responsible for overseeing the activities of the
entire organization.
3. RAPHEL CHRISTOPHER DOUGLAS assisted
HAWKESWORTH by supplying cocaine to the
Hawkesworth drug trafficking organization, by
distributing cocaine in Barbados and elsewhere,
and by shipping cocaine directly from Guyana to
the United States.
4. TERRENCE SUGRIM assisted DOUGLAS and
HAWKESWORTH
by
coordinating
the
distribution of cocaine supplied by DOUGLAS in
Barbados, and assisting with the distribution of
coca ne directly from Guyana to the United
States.
5. JOHN WAYNE SCANTLEBURY assisted
HAWKESWORTH irt distributing cocaine in
Barbados and elsewhere and coordinated
meetings between potential buyers of cocaine
and
the
Hawkesworth
drug
trafficking
organization.
6. SEAN GASKIN assisted HAWKESWORTH by
meeting with buyers of cocaine and assisting in
the transportation of cocaine to the United
States.
COUNT I
From in or about January 1999, and continuing
thereafter, up to and including at least May 27,
2004, il,1 Barbados, Guyana, St. Lucia, New York
51a

and elsewhere, the defendants, FREDERICK
CHRISTOPHER
HAWKESWORTH,
a/k/a
Christopher
Hawksworth,
a/k/a/
Frederick
Hawkesworth,
a/k/a/
"Chris,"
RAPHEL
CHRISTOPHER DOUGLAS, a/k/a/ Christopher
Douglas, a/k/a/ "Raphie Christopher Douglas a/k/a
"Chris," TERRENCE SUGRIM, a/k/a/ Terrence
Emman uel
Segrim,
JOHN
WAYNE
SCANTLEBURY, a/k/a/ John Wayne Trotman,
a/k/a/ Frederick Davis, and SEAN GASKIN did
knowingly and intentionally combine, conspire,
confederate, and agree with each other and with
others known and unknown to the Grand Jury,
including with co-conspirators not indicted herein,
to commit the following offense against the United
.States: to knowingly and intentionally manufacture
and distribute five kilograms or more of a mixture
and substance containing a detectable amount of
cocaine, a Schedule II controlled substance;
intending and knowing that such substance would
be unlawfully Imported into the United States, in
violation of Title 21, United States Code, Sections
959 and 960.
OBJECT OF THE CONSPIRACY
It was the object of the conspiracy to distribute
cocaine in Barbados, Guyana and elsewhere outside
of the United States, knowing and intending that the
cocaine would be imported into United States.
MANNER AND MEANS OF THE CONSPIRACY
The defendants and other co-conspirators, both
known and unknown to the Grand Jury, used the
following manner and means to accomplish the goal
of the conspiracy:·
1. FREDERICK CHRISTOPHER HAWKESWORTH
and other co-conspirators obtained cocaine from
Guyana, Colombia, Venezuela or elsewhere.
2. HAWKESWORTH and other co-conspirators hid
the cocaine at safe locations in Barbados, St.
Lucia and elsewhere or maintained control of the
52a

cocaine in Guyana, until the organization
completed arrangements to distribute the cocaine
to purchasers, or to transport the cocaine to the
United States.
3. RAFEL CHRISTOPHER DOUGLAS supplied
cocaine to the Hawkesworth . drug trafficking
organization in Barbados and, in coordination
with the Hawkesworth organization, shipped
cocaine directly from Guyana to the United
States.
4. JOHN
WAYNE
SCANTLEBURY,
SEAN
GASKIN and other co-conspirators obtained false
identification cards and documents in order to
travel to the United States to facilitate the
importation of cocaine from Barbados, Guyana
and elsewhere into the United States.
5. HAWKESWORTH, DOUGLAS and other coconspirators utilized couriers, luggage, and
commercial packages traveling on passenger
airline flights to transport cocaine from Barbados
or Guyana to the United States.
OVERT ACTS
In furtherance of the conspiracy and in order
to effect and accomplish its objects, within the
United States, Barbados, St. Lucia, Guyana and
elsewhere, one or more of the defendants, and
other unindicted co-conspirators, both known and
unknown to the Grand Jury, in various
combinations, directly and indirectly, committed
overt acts, including but not limited to, the
following:
1. On or about September 29, 2000, HAWKESWORTH met in Barbados with a Confidential
Informant (CI) to negotiate for the sale of two
kilograms of cocaine for $8,500 per kilo, which
were to be transported to the United States.
2. On or about July 9, 2002, HAWKESWORTH met
in Barbados with the CI and offered to sell him
two kilograms of cocaine for $8,500 per kilo,
53a

3.

4.

5.

6.

7.

8.

which were to be transported to the United
States.
In or about August 2003, SCANTLEBURY
provided passport photographs of himself to the
CI and instructed him to obtain a false New York
identification card with the name "Frederick
Davis," for the purpose of traveling to New York
and facilitating shipments of cocaine, by the
Hawkesworth drug trafficking organization, to
the United States.
On or about September 7, 2003, at a meeting
with GASKIN and SCANTLEBURY at the Accra
Beach Chefette in Barbados, at which they
discussed transporting cocaine from Guyana to
JFK airport in New York, GASKIN provided
photographs of himself to the CI and instructed
him to make fictitious New York identification
cards for the purpose of traveling to New York to
assist SCANTLEBURY and HAWKESWORTH
in shipping cocaine to the United States.
On or about September 20, 2003, HAWKESWORTH,
DOUGLAS,
SCANTLEBURY,
SUGRIM and other co-conspirators shipped 184
kilograms of cocaine from Guyana to JFK Airport
in New York.
On or about October 13, 2003, at a meeting with
SCANTLEBURY and GASKIN at the Worthing
Court Hotel, in Barbados, for the purpose of
determining whether "contacts" were in place at
JFK airport in New York so that the
Hawkesworth drug trafficking organization could
conduct a "test shipment" of cocaine, the CI gave
GASKIN the fictitious New York identification
cards.
On or about November 24, 2003, HAWKESWORTH and the CI traveled from Barbados to
Guyana to meet with associates of DOUGLAS
and discuss shipping cocaine from Guyana cir
Barbados to the United States.
On or about December 12, 2003, HAWKES54a

WORTH and DOUGLAS attempted to,,send a
"test .Joad" of cocaine, packaged in a black nylon
drawstring bag bearing the Nike "swoosh" logo,
from Guyana through JFK airport in New York.
9. On or about December 13, 2003, HAWKESWORTH introduced the CI to SEGRIM who
discussed shipping an initial load of 10-25 kilos
of cocaine to New York, which airlines could be
used to ship the cocaine, and various methods of
packing the cocaine.
10. On or about December 16, 2003, HAWKESWORTH and DOUGLAS attempted to send a
"test shipment" of cocaine from Guyana to the
United States, hidden in passenger luggage
aboard a British West Indies Airlines flight to
JFK airport in New York.
11. On or about March 30, 2004, HAWKESWORTH
and DOUGLAS distributed one kilogram of
cocaine for $8,000, in Barbados, to the CI, and
they "fronted" the CI another kilogram of cocaine
to be transported to the United States and sold.
12. On or about May 21, 2004, DOUGLAS conducted
a telephone conversation with the CI and
instructed him to bring the money, from the sale
of cocaine in New York, to. Barbados and deliver
it to HAWKESWORTH.
13. On or about May 26, 2004 , the CI met
HAWKESWORTH at Pisces restaurant in
Barbados to discuss purchasing five kilograms of
cocaine for $40,000 cash.
All in violation of Title 21, United States Code,
Sections 960, 963, and Title 18, United States Code,
Sections 2 and 3551 et seq.
COUNT TWO
On or about March 30, 2004, in Barbados,
FREDERICK CHRISTOPHER HAWKESWORTH
and RAPHEL CHRISTOPHER DOUGLAS and
others known and unknown to the grand jury, did
knowingly and intentionally distribute 500 grams or
55a

more of a . mixture and substance containing a
detectable amount of cocaine, a schedule II
controlled substance, intending and knowing that
such cocaine would be unlawfully imported into
the United States. In violation of Title 21, United
States Code, Sections 959, 963 and Title 18,
United States Code, Sections 2 and 3551 et seq.
FORFEITURE ALLEGATION
Upon conviction of the criminal violation
alleged in Counts One and Two of this
Indictment, said offenses being punishable by
imprisonment for more than one year, the
defendants shall forfeit to the United States,
pursuant to Title 21, United States Code, Sections
853 and 970, any and all respective rights, title,
or interest which the defendants may have in:
(1) any and all money and/or property constituting,
or derived from, any proceeds which said
defendants obtained, directly or indirectly, as the
result of the violations alleged in Counts One
and Two of this Indictment; and
(2) any and all property used, or intended to be
used, in any manner or part, to commit, or to
facilitate the commission of, the violations
alleged in Counts One and Two of this
Indictment, together with all interest and
proceeds traceable thereto, in that said property
constitutes or was derived from proceeds said
defendants obtained as a result of the
violations charged in Count One and Two of
the Indictment, and is property which was
u s e d or intended to be used to facilitate said
violations.
If any of the above described property, as a
result of any act or omission of the defendants:
(a) cannot be located upon the exercise of due
56a

diligence;
(b) has been transferred, or sold to, or deposited
with, a third party;
(c) has been placed beyond the jurisdiction of the
Court;
(d) has been substantially diminished in value; or
(e) has been commingled with other property which
cannot be subdivided without difficulty;
it is the intention of the United States, pursuant to
Title 21, United States Code, Section 853(p), to seek
forfeiture of any other property of the defendants up
to the value of the property described in paragraphs
1 and 2 above.
(Criminal Forfeiture pursuant to Title 21, United
States Code, Sections 853 and 970)
A TRUE BILL
/signed/
Foreperson
Jodi L. Avergun, Chief
Narcotics and Dangerous Drug Section
Criminal Division
United States Department of Justice
Washington, D.C. 20530

/signed/
Stephen M. May
Senior Trial Attorney
Narcotic and Dangerous Drug Section
Criminal Division
United States Department of Justice
Washington, D.C. 20005
(202) 514-1373
57a

